      Memorandum from the Office of the Inspector General



      March 27, 2008

      E. Wayne Robertson, SP 5A-C

      REQUEST FOR FINAL ACTION – AUDIT 2007-11348 – INFORMATION SERVICES
      ORGANIZATIONAL EFFECTIVENESS



      Attached is the subject final report for your review and final action. Your written
      comments, which addressed your management decision and actions planned or taken,
      have been included in the report. Please notify us within one year from the date of this
      memorandum when final action is complete.

      If you have any questions, please contact Sylvia J. Whitehouse, Senior Auditor, at
      (865) 632-2640 or Jill M. Matthews, Director, Information Technology Audits, at
      (865) 632-4730. We appreciate the courtesy and cooperation received from your staff
      during the audit.




(For) Robert E. Martin
      Assistant Inspector General
       (Audits and Inspections)
      ET 3C-K

      SJW:JP
      Attachment
      cc (Attachment):
            Steven A. Anderson, SP 5A-C
            William R. Brandenburg, Jr., MP 3B-C
            Frank A. Foster, OCP 2C-NST
            Peyton T. Hairston, Jr., WT 7B-K
            Tom D. Kilgore, WT 7B-K
            Melissa A. Livesey, WT 5B-K
            John E. Long, Jr., WT 7B-K
            Janice W. McAllister, EB 5B-C
            Charles H. McFall, Jr., SP 2D-C
            Richard W. Moore, ET 4C-K
            Gabrielle A. Ratliff, WT 5B-K
            Emily J. Reynolds, OCP 1L-NST
            OIG File No. 2007-11348
Information Services Organizational Effectiveness
              OIG Audit 2007-11348

                 March 27, 2008




                                                1
Contents
I.     Summary
II.    Project Overview
III.   Background
IV.    Assessment
       a.   Governance & Planning
       b.   Business Alignment
       c.   Value Realization
       d.   Resources
       e.   P j t
            Projects
       f.   Operations
V. IT Organization Practices
VI Levels
VI.   L    l off Effectiveness
                 Eff ti
VII. Recommended Future State
VIII. Prioritization
A
Appendix
       di – TVA Management's
                   M           t' R
                                  Response

                                             2
Summary
Positive Findings
• New IS management is committed to breaking down the
  barriers within IS to become a more integrated
  organization focused on service delivery.
                                                            TVA IS Organizational Effectiveness
• The restructure of infrastructure operations and
  engineering and its use of standard processes mirror the            Current State
  leading practices.
                                                                          Governance
• IS has the organizational structures, methodologies, and
  tools to conduct IT projects at a level above its peers
  among utilities.
• IS implements large IT projects above a $100K            Operations                     Alignment
  investment with a high rate of success.
Opportunities for Improvement                                                            -
                                                                                         4
• Better integrate governance with TVA business strategy                                 E
                                                                                         +
  to attain the greatest value for TVA
                                   TVA.
• Improve focus on strategic business partnering and
  communication with customers to foster good relations    Projects                                   Value
  and deliver business value.
• Target organization and policy changes, performance
  measures, and service management toward aiding
  customers to achieve
                   hi     b
                          business
                             i      goals.
                                       l                                          R
                                                                                  Resources
                                                                      Leading Practice       Mean   TVA
• Develop strategy for handling the risk of the aging
  workforce and ensuring knowledge transfer.
• Coordinate governance of TVA IT investments
  at an enterprise level to achieve optimum value.
TVA managementt agreed   d with
                            ith our recommendations
                                             d ti   with
                                                     ith one exception
                                                                  ti related
                                                                       l t d tto project
                                                                                    j t
budgeting. TVA management proposed actions to implement program improvements and scheduled
action plans for completion by December 31, 2008. We concur with TVA management's proposed
actions. (See the Appendix for the complete response.)
                                                                                                              3
Project Overview
Project Objective
Evaluate the effectiveness of the IS organization and high-level practices to determine if any
significant gaps exist (or will remain after reorganization).
Approach
• Enlisted the support of an external consulting firm with subject matter expertise.
• Interviewed 50 IS and business personnel.
• Gathered and reviewed documentation related to:
  – Reorganization
  – Historical Strategy
  – Policies/Procedures
  – IS Tools
  – Service Level Management
  – Previous Evaluations of IS
• Analyzed interview results, mapped to leading practices, and rated based on professional
  opinion.
• Referenced standards and materials from:
  – Consultant’s Benchmarks
  – CoBIT 4.1 Control Objectives for Information and related Technology
  – IT Governance Institute
  – IT Infrastructure Library (ITIL)
  – Capability Maturity Model Integration (CMMI)
  – Help Desk Institute



                                                                                                 4
Project Overview (cont.)
Scope
This audit was included in our annual audit plan and was conducted in accordance with
generally accepted government auditing standards for performance audits. The scope of
this audit was policies
               policies, procedures
                         procedures, and practices in place during our fieldwork period of
November and December 2007.

We relied on subject matter expertise provided by the external consulting firm for:
• Identifying leading and average IT organization practices and
• Rating TVA effectiveness in performance of these practices.
We collaborated with the subject experts to develop action steps for improving TVA
performance and moving toward recommended future state.




                                                                                             5
Background
• IS is in the process of undergoing significant changes:
 – The IS organization has a new management team effective the summer of 2007.
 – The new management team is reviewing and redesigning the organization structure within IS.
   The new structure is being implemented in a phased approach.
• Historically, the IS organization was not tightly integrated.
 – The new management team is striving to change that aspect of the organization.
• In addition to IS,
                 IS TVA has other IT organizations (e.g.,
                                                    (e g Nuclear Power Group and Power System
  Operations) that perform functions similar to IS such as managing network segments and
  administering servers.
• The IT industry faces a shortage of skilled, experienced talent in the workforce. The IS
  workforce is impacted by:
 – Sustainable Performance Initiatives that are driving reductions in the IS headcount.
 – Skilled, experienced talent choosing retirement or taking more lucrative offers.




                                                                                             6
                                     Governance & Planning
        Governance
          Governance
               6                     Current State
               4
Operations               Alignment
               2                     • TVA's IS organization continues to evolve its approach to governance and planning. IS recognized the previous
               0                       approach yielded suboptimal results and has launched efforts to define a more effective program.
  Projects               Value
                                     • An integrated mapping of frameworks and standards is not in place to provide a holistic view of how standards will be
             Resources                 used to ensure effective governance. The IS governance framework being adopted, CoBIT, is the industry standard.
                                      – IS previously defined a governance structure including committees; the documentation and interviews indicate this
                                        governance was primarily project based. However, the committees were put on hold until the new governance
                                        model is rolled out.
                                      – Multiple
                                             p g governance processes
                                                            p         are used for different IT g
                                                                                                groups
                                                                                                    p in TVA business units.
                                     • A documented strategy exists for 2005 through 2007. A more recent version is not yet available.
                                      – The 2005-2007 strategy did not explicitly show how IS objectives and goals supported overall TVA corporate
                                        objectives and goals.
                                     • Performance measures are IT-based and tactical rather than strategic.
                                     • IT projects are prioritized primarily by customers
                                                                                customers. IS uses tools such as spreadsheets to track projects
                                                                                                                                       projects.
                                     Recommended Future State
                                     • A current three-year strategy that clearly ties to TVA's business strategy and value.
                                     • IS governance framework that outlines all aspects of governance and planning including plan, organize, policies, and
                                       measure controls.
                                     • All of TVA's IT businesses and functions are governed through a single framework.
                                     • IS governance committees span all aspects of IT processes. Business units are actively involved in setting IT
                                       direction.
                                     • Performance measures are geared to TVA value and gauge customer satisfaction.
                                     • Application and project portfolio management are closely integrated
                                                                                                integrated.




                                                                                                                                                       7
                                     Governance & Planning
                                     Recommendations and Costs/Benefits
        Governance
          Governance
               6                     The recommendations are geared to integrating IS governance with TVA business strategy to attain
Operations
               4
               2
                         Alignment   the greatest value from TVA's IT investment. IS must understand the costs and benefits from both
               0                     projects and existing applications. The costs to implement action steps are projected at a medium
  Projects               Value       range
                                         g but may y be offset by
                                                                y savings
                                                                       g from reduced duplication
                                                                                          p       of work. Multiple
                                                                                                                p benefits are expected
                                                                                                                                  p
             Resources               in all aspects of IT management.

                                                                                                  Cost
                                      #              Recommendation                                                        Benefits                 $$
                                                                                                Elements
                                          Governance Definition & Planning                  • Internal IT        • Clearly articulated IS
                                          Accelerate governance project and integrate         personnel (both      direction in business terms
                                          with business strategies.                           IS and others)     • Reduced redundant
                                          • Update the formal IS strategy and ensure it     • Business units       functions                       Costs
                                            articulates the business alignment.             • Consulting         • Enhanced IS/business           Medium
                                      1           p
                                          • Incorporate  all TVA IT functions including
                                                                                      g       (if needed)          relations
                                            other business units within the framework.                           • Improved management of IT      Benefits
                                          • Reestablish the governance committees                                  investments                     High
                                            including scope, roles, and responsibilities.                        • IT investments aligned with
                                          • Rework performance measurement.                                        strategy
                                                                                                                 • Integrated IS organization
                                          Portfolio Management                              • Software license   • More projects completed
                                          Integrate project and application portfolio       • Implementation     • Highest valued projects         Costs
                                          management at an enterprise-wide level.           • Training             selected                        High
                                      2   • Implement software tools to manage and          • Internal IS        • Reduced maintenance costs
                                            identify the highest value portfolio of IT        personnel
                                                                                              p                  • Enhanced pproject
                                                                                                                                 j   reporting
                                                                                                                                       p      g   Benefits
                                            investments.                                    • Business units     • Reduced time to prioritize      High
                                                                                                                   projects

                                                            $$: Low < $250K         Medium: $250K to $1M         High: $1M+
                                                                                                                                                     8
                                    Business Alignment
             Governance
                6                   Current State
                4   Alignment
Operations
                2
                        Alignment   • IS' new management team voices commitment to changing the perceptions about IS within the customer base.
                0
                                    • Most TVA business units do not include IS in their strategic planning processes.
  Projects                Value
                                      – Although pockets of IS appear to be proactive, IS generally does not bring changes in technology to the business.
             Resources                   Technology changes are typically driven by business units, and IS is included postdecision.
                                      – IS-driven changes are not fully budgeted.
                                    • Customer interfaces are not consistently effective; relationships between IS and the business tend to be tactical or
                                      reactive rather than strategic and proactive.
                                      – IS pplans to replace
                                                       p     the existingg Account Manager
                                                                                         g roles with a revised Service Management
                                                                                                                              g        structure to p
                                                                                                                                                    provide
                                         three primary business interface resources – one each for infrastructure, applications, and customer coordination.
                                         By eliminating a single point of contact for each of TVA's many business units, the potential confusion could create
                                         greater distance between IS and its customers and work against alignment with the business.
                                      – Many customers are confused about proper channels of communication with IS and do not know who to contact.
                                      – Business units commented there was not enough communication, and it typically focused on what was going on in
                                         IS versus hhow IS was aiding
                                                                  idi ththe b
                                                                            business.
                                                                               i
                                      – Communication with IS often requires translation from technical jargon to plain English; business units often have to
                                         learn IT to communicate with IS. Business savvy is not always present in IS.
                                      – Service Level Agreements (SLAs) do not reflect business needs.
                                    • Two tools used to track customer requirements for help desk issues and software service requests are independent of
                                      customer satisfaction tracking
                                                             tracking.
                                    Recommended Future State
                                    • IS provides the tools and services necessary for customers to meet their missions. IS monitors external technology
                                      trends and proactively brings solution options to the business. IS is integrated into business strategy and operations
                                      processes.
                                    • IS provides a clear single point of contact for customer management that is knowledgeable of the customer's business
                                      needs, industry/IT trends, and IS resources.
                                      – IS delivers frequent, targeted communication with key messages in layman terms.
                                      – SLAs are defined in terms of business processes.
                                                                                                                                                      9
                                    Business Alignment
                                    Recommendations and Costs/Benefits
             Governance
                6                   The recommendations are geared to improving communications and delivering business value.
                4   Alignment
Operations
                2
                        Alignment   Focus should be from the customer's point of view looking into IS versus IS' operations.
                0

  Projects                Value                                                               Cost
                                    #                Recommendation                                                    Benefits                    $$
             Resources
                                                                                            Elements
                                        Communication Plan                                  • Internal IS   • Clearly articulated IS direction
                                        Provide a structured overarching plan of              personnel       in business terms
                                        communication to ensure consistent interaction                      • Improved IS/business
                                        with customers.                                                       relations
                                        • Seek inclusion in business strategy and                           • Reduced chances of rework           C t
                                                                                                                                                  Costs
                                          operational meetings. Continue cultural shifts                    • More successful projects             Low
                                    3     to proactive involvement.
                                        • Focus on key messages, timing, and delivery                                                            Benefits
                                          mechanisms.                                                                                            Medium
                                        • Ensure
                                          E       projects
                                                      j t include
                                                           i l d non-ISIS technology
                                                                          t h l
                                          costs.
                                        • Increase emphasis of customer communication
                                          in performance measurement.
                                        Customer Management                                 • Internal IS   • More strategic customer
                                        Redefine the customer management role from            personnel       relations
                                        the customer's point of view.                                       • Clear points of contact             Costs
                                        • Reevaluate the revised IS structure for service                   • Less confusion for business          Low
                                    4     management and how it will be deployed;
                                          ensure IS staff has the skill set needed to                                                            Benefits
                                          foster collaboration
                                                 collaboration.                                                                                  Medium
                                        • Establish SLAs to measure business process
                                          results.

                                                          $$: Low < $250K       Medium: $250K to $1M         High: $1M+
                                                                                                                                                   10
                                       Value Realization
             Governance
                6                      Current State
                4
Operations                 Alignment
                2                      • IS has conducted a number of comparison initiatives that demonstrate the tactical components of IS functions are better
                0                        than at most utilities.
  Projects                 Value
                          Value
                                       • The measured components have driven behavior away from aligning with the needs of the business.
             Resources
                                         – Business unit customers stated that SLAs provide limited to no value to them, and the customer does not use the
                                            SLAs in evaluating the effectiveness of IS.
                                         – The measured elements of the SLAs are more effective for benchmark comparisons than they are for aligning the
                                            service with the business customers' needs.
                                         – Reviews of IS performance from the customer perspective are informal with most areas not having a set review
                                            schedule.
                                       • Overall business unit customer satisfaction with IS is moderate with pockets of excellence.
                                         – Areas with high customer satisfaction are typically characterized by having knowledgeable IS staff that communicate
                                            in layman terms or the customers' business language.
                                         – Customers stated that researching and sharing how technology is impacting the customers' business was important
                                            to them; yet, a small minority reported receiving this service from IS.
                                         – The
                                            Th 100
                                                 100+ procedures
                                                              d    related
                                                                     l d to IS are hihighly
                                                                                        hl redundant
                                                                                             d d       andd confusing
                                                                                                               f i to bbothh customers and
                                                                                                                                         d IS personnell or d
                                                                                                                                                            do not
                                            address business needs.
                                       • IS uses and publishes a project scorecard that highlights the status of mid-to-large projects.
                                       • TVA has multiple organizations besides IS that provide IT services to the business.
                                       Recommended Future State
                                       • B
                                         Business
                                             i     customers
                                                       t      and
                                                                d IS jjointly
                                                                        i tl agree on SLA
                                                                                      SLAs that
                                                                                           th t reflect
                                                                                                  fl t the
                                                                                                        th needs
                                                                                                              d off the
                                                                                                                    th business.
                                                                                                                        b i
                                         – Performance reviews are held with customers on a regular basis.
                                         – Metrics demonstrate to the business the value that IS provides.
                                       • Customer satisfaction is high across the customer base.
                                         – Business trends enhanced by technology are actively researched and reported to the business.
                                         – IS communicates in business terms or plain English
                                                                                         English.
                                         – Policies and procedures are consolidated, simplified, and understood by the appropriate audience.
                                       • Project scorecards continue to be updated and published.
                                       • IS and other IT organizations continue to work together and seek ways to reduce duplication of work.

                                                                                                                                                              11
                                       Value Realization
                                       Recommendations and Costs/Benefits
             Governance
                6                      Business customers realize value when their business processes are enhanced through technology.
                4
Operations
                2
                           Alignment   The following recommendations are aimed at channeling existing IS programs into a more customer
                0                      value-oriented direction.
  Projects                 Value
                          Value
                                                                                                Cost
             Resources
                                        #                Recommendation                                                  Benefits                  $$
                                                                                              Elements
                                            Service Level Management                          • Internal IS   • Ability to gauge value from IS
                                            Redefine the service level management program       personnel     • Improved evaluation of
                                            to be more customer
                                                        customer-focused
                                                                  focused.                    • Consulting      services                          Costs
                                            • Work with customers to define how to measure      (if needed)   • Closer alignment with              Low
                                       5      IS' impact on the business process.                               business value
                                            • Define a process and program for                                • Increased customer               Benefits
                                              measurement.                                                      satisfaction                     Medium
                                            • Build service level measures based on
                                              business process outcomes.
                                            Procedure Refresh                                 • Internal IT   • Reduced duplication of effort
                                            Consolidate procedures to reduce redundancy         personnel     • Increased comprehension of
                                            and increase usability.                             (both IS        policies                          Costs
                                                                                                and others)   • Lower cost to maintain and         Low
                                            • Unify procedures for all IT groups including
                                              other business units to enhance collaboration   • Consulting      train
                                       6                                                        (if needed)
                                              and standardization.                                                                               Benefits
                                            • Align procedures to enhanced standards.                                                             Low/
                                            • Define the procedures to support the revised                                                       Medium
                                              governance and service level management
                                              programs.



                                                             $$: Low < $250K        Medium: $250K to $1M       High: $1M+
                                                                                                                                                   12
                                      Resources
             Governance
                6                     Current State
                4
Operations
                2
                          Alignment   • As a preferred employer, TVA has attracted and retained high-quality talent.
                0
                                      • Customers are concerned with losing organizational and application knowledge resident in the TVA IS staff.
  Projects                Value
                                        – 22 percent of IS employees are over 55 years of age.
             Resources
              Resources                 – 69 percent of IS employees are over 45 years of age.
                                        – The average age of IS workers at 47½ is greater than the average age of TVA as a whole.
                                      • Resource leveling is informal and based on management's perception of employee workloads.
                                      • With the recent restructuring and work pressures, IS has experienced a sagging morale.
                                      • TVA uses a blend of employee
                                                              employee, contractor,
                                                                        contractor and managed task to support the business needs
                                                                                                                            needs.
                                      • The large number of represented IS employees presents unique challenges not seen in large, investor-owned
                                        utilities.
                                      Recommended Future State
                                      • IS continues to attract high-caliber resources to support the business.
                                        – IS employees are retained and backfilled based on the needs of the business.
                                        – A recruiting plan is in place to mitigate the potential exodus of organizational and subject matter expertise
                                           over the next ten years by better balancing the IS staff's years of service.
                                        – Contractors and managed task resources continue to be used to augment the employee workforce and
                                           preserve the flexibility changing demands require.
                                      • Customers are confident in receiving a high level of service from their support staff over the long term.
                                      • Resource leveling is based on job time and level of effort and is coordinated across large and small projects.
                                      • Stabilization of the workforce and closer alignment with the business improve morale.




                                                                                                                                                          13
                                      Resources
                                      Recommendations and Costs/Benefits
             Governance
                6                     Resources are the key to delivering the level of services required by the business line. IS has a
                4
Operations
                2
                          Alignment   critical mass of potential retirees who possess a tremendous amount of technical and organizational
                0                     knowledge. With the limited availability of resources in the marketplace and the aging of the
  Projects                Value
                                      workforce,, IS must have a means to capture
                                                                               p    the knowledgeg of the workers.
             Resources
              Resources
                                                                                                              Cost
                                       #                     Recommendation                                                       Benefits             $$
                                                                                                            Elements
                                           Knowledge Transfer                                              • Internal IS   • Reduced chance of
                                           Develop p a strategy
                                                             gy to capture
                                                                     p     the knowledgeg of subject
                                                                                                  j          personnel       gaps in expertise for
                                           matter experts and incorporate in overall IS management                           critical applications
                                           for the long term.                                                              • Improved long-term
                                           • Identify resources likely to migrate out of TVA over the                        supportability of        Costs
                                             next 3 to 5 years.                                                              applications              Low
                                       7   • Build out a formal redundancy capability in the higher                        • Shallower learning
                                             risk
                                              i k areas.                                                                     curves and
                                                                                                                                                     Benefits
                                                                                                                             enhanced risk
                                           • Capture important organization and application                                                          Medium
                                                                                                                             mitigation during
                                             knowledge for those exposures over time.
                                                                                                                             resource transitions
                                           • Document and implement a formal set of practices to
                                                                                                                           • Increased multi-
                                             off-board and on-board resources for all IS services.
                                                                                                                             skilled resources
                                           • Identify areas where outside talent will be recruited
                                                                                          recruited.
                                           Resource Leveling                                               • Internal IS   • Reduced duplication
                                                                                                                                                      Costs
                                           Enhance staff planning and resource management to                 personnel       of effort
                                                                                                                                                       Low
                                           utilize time-based information and level of effort.                             • Increased
                                       8   • Leverage existing TVA time tracking systems to                                  comprehension of
                                             capture time for all work efforts
                                                                       efforts.                                              policies                Benefits
                                                                                                                                                      e e ts
                                           • Establish individual tracking codes for all efforts greater                   • Lower cost to           Medium/
                                             than 40 hours.                                                                  maintain and train       High

                                                              $$: Low < $250K         Medium: $250K to $1M           High: $1M+
                                                                                                                                                       14
                                      Projects
             Governance
                6                     Current State
                4
Operations
                2
                          Alignment   • IS has adopted a project methodology and tools to assist in the adherence to that methodology. This, combined
                0                       with documented processes and review councils, places TVA ahead of the general industry practices.
  Projects
  Projects
                          Value         – Project
                                              j    Management
                                                        g        Body
                                                                    y of Knowledge
                                                                                 g ((PMBOK)) is the methodology.gy
             Resources                  – The Summit Ascendant tool is used for the templates and structure around PMBOK methodology.
                                        – Other IT organizations in TVA do not use PMBOK or Summit Ascendant.
                                        – Business and section IS managers review all projects in their work scope.
                                      • Smaller projects are not managed with standard methodologies or optimized for best business value.
                                      • The business funds and prioritizes large projects
                                                                                 projects.
                                      • Projects that cost more than $100K are evaluated by the Project Review Board and directed by resources from the
                                        IS Project Management Office (PMO).
                                        – A Project Management Success Index (PMSI) is utilized to measure project outcome.
                                        – Customer satisfaction with large project work is rated high at 93 percent.
                                      • Some people were concerned that not all needed business functions would be included in Enterprise System
                                        Program (ESP) projects. However, others indicated the goal of the ESP was to transform business processes.
                                      Recommended Future State
                                      • IS continues to employ and enhance the methodology and tools in place today.
                                        – Executives expand the requirement to use the tools and methodologies to other non-IS IT organizations as
                                           applicable.
                                           applicable
                                      • The business justifies the expenditure on IT projects, but the budget is allocated to IS to promote the holistic
                                        approach and resource leveraging.
                                        – IS resources are allocated to the highest value projects across TVA.
                                      • PMO approach is used for projects requiring 40 hours or greater.
                                        – Resources practiced in PMO methodology continue to lead the smaller projects facilitated by quick templates
                                                                                                                                                 templates.
                                      • PMSI is enhanced to measure delivered functionality versus original functionality requirements.
                                      • IS is a lead within project management for large technology-based projects and acts as the overall IT advisor of the
                                        project.

                                                                                                                                                        15
                                      Projects
                                      Recommendations and Costs/Benefits
             Governance
                6                     Consistent project implementation is key to future successes. TVA is investing over $100M in the
                4
Operations
                2
                          Alignment   ESP effort to redefine business processes and supporting technology. Enterprise-level
                0                     governance will optimize use of IS resources to support all projects in the portfolio.
  Projects                Value
  Projects
                                                                                                         Cost
             Resources
                                       #                    Recommendation                                                  Benefits            $$
                                                                                                       Elements
                                            Project Methodology Standardization                      • Internal IT     • Consistent quality
                                            Coordinate governance of TVA IT investments                 personnel        level across TVA
                                            at an enterprise level
                                                             level.                                    ((both IS and   • Increased
                                                                                                        others)                                Costs
                                            • Work with IT groups in other business units to adopt                       supportability
                                                                                                                         across                 Low
                                              IS' tools and methodologies.
                                       9                                                                                 organizations
                                            • Transfer project budgets to IS versus holding in the
                                              business unit.                                                           • Increased            Benefits
                                                                                                                         optimization of IS   Medium
                                            • Extend standard methodology gy to projects
                                                                                p j      requiring
                                                                                           q     g
                                                                                                                         resource usage
                                              40 hours and greater.
                                            • Create quick templates for smaller work.




                                                            $$: Low < $250K       Medium: $250K to $1M        High: $1M+
                                                                                                                                                16
                                     Operations
            Governance
               6                     Current State
Operations     4
Operations
               2
                         Alignment   • IS Infrastructure Operations and Engineering functions compare favorably with that of the industry.
               0
                                       – All major ITIL processes have been identified and are executed against.
 Projects                Value
                                       – IS utilizes a tiered support structure for increased efficiencies.
            Resources                  – IS uses tools (HP Service Desk and ClearQuest) to administer the customer requests.
                                       – SLA metrics are gathered.
                                     • Current processes are driven from an IT perspective.
                                     • IS is transitioning from a silo approach to a more integrated approach built around operations and engineering
                                       functions
                                       functions.
                                     • Benchmarking is conducted regularly, and there is a high focus on monitoring the effectiveness of the organization.
                                       – Overall benchmark data shows IS as a strong performer.
                                       – Benchmark data indicates that staffing levels supporting servers and help desk functions are potentially a bit high.
                                       – First call resolution is roughly 70 percent, which could be improved.
                                     • Resolution rates for problems beyond the help desk are not as consistently measured and reported.
                                     Recommended Future State
                                     • IS continues to improve its strong operations practices.
                                       – The focus is shifted from an IT-process-driven function to a business-process-driven function.
                                       – IS evolves to a fully integrated team for operation and engineering functions
                                                                                                             functions.
                                       – One system is utilized to track all requests.
                                       – All service level measurement is done within the IT service center function.
                                       – Server and help desk staffing levels are confirmed and rebalanced if necessary.
                                       – First call resolution improves to 80 percent of addressable calls.




                                                                                                                                                       17
                                     Operations
                                     Recommendation and Costs/Benefits
            Governance
               6                     TVA’s overall IS Operations performance is commensurate with peers among utilities. Minor
Operations
Operations
               4
                         Alignment   enhancements to existing processes and procedures would elevate the group's performance to
               2
               0                     leading practice ahead of the peer group.
 Projects                Value


            Resources                                                                          Cost
                                     #                 Recommendation                                                   Benefits                    $$
                                                                                             Elements
                                          Help Desk Tools and Measures                       • Internal IS   • Improved first call resolution
                                          • Standardize the tracking of issues in one          personnel     • Central repository of
                                            system (multiple systems can be used for                           i f
                                                                                                               information
                                                                                                                        ti                         Costs
                                            documentation, but one tool should be used as                    • Ability to accurately report all     Low
                                            system of record and tracking).                                    help desk issues quickly and
                                     10
                                          • Consolidate all service request measurement                        consistently
                                            and reporting into the help desk function.                                                            Benefits
                                          • Build out the database of help desk problems
                                                                                 problems.                                                          Low




                                                          $$: Low < $250K        Medium: $250K to $1M        High: $1M+
                                                                                                                                                    18
IT Organization Practices
                        Level V (Leading Practice)                                     Level III (Average)
              • Documented 3+ year strategy linked to corporate and       • Documented 3+ year strategy.
                business strategies and tied to changes in technology.    • Fully documented governing framework.
Governance
G             • Fully
                F ll documented
                      d        t d and
                                     dddeployed
                                           l    d fframework
                                                           k with
                                                              ith           S
                                                                            Supporting
                                                                                   ti methodologies
                                                                                           th d l i exist i tb
                                                                                                             butt are
& Planning      supporting methodologies interwoven.                        independent of the governance framework.
              • Resources are optimized to create greatest value for      • Projects are prioritized based on value for
                company.                                                    company.
              • IT identifies technological impacts proactively for the   • IT occasionally identifies technological impacts for
                business.                                                   the customer.
B i
Business
              • Active participation in the business' strategy and        • IT is invited to attend customer strategy meetings.
Alignment
                governance committees.                                    • IT relates to business in business or layman
              • IT relates to business in business or layman terms.         terms.
              • Documented and managed SLAs are based on value            • SLAs slanted toward comparing IT to other IT
Value           drivers for the business.                                   shops versus mapped to the business function.
Realization
              • Performance reviews take place with regularity.           • Performance reviews infrequent and informal.
              • There is a resource management plan with fully defined    • There is a resource management plan with
Resources       acquisition, development, and retirement components.        defined acquisition and development components.
              • Customer views the IT resources as high caliber.          • Customer views the IT resources as high caliber.
              • Standard project management methodologies exist for       • Standard project management methodologies
                diff
                different types and
                                  d sizes
                                     i    off projects.
                                                 j                          exist
                                                                              i ffor llarge projects.
                                                                                               j
Projects
              • Project Review Board approves changes in scope,           • Project Review Board approves changes in scope,
                budget, or schedule.                                        budget, or schedule.
              • Employs a standard IT service management best             • Employs a standard IT service management best
                practice framework (e.g., ITIL).                            practice framework (e.g., ITIL).
Operations
              • One system for tracking tickets (both software service    • Multiple systems for tracking service requests
                                                                                                                  requests.
                requests and help desk calls).




                                                                                                                          19
                                      Levels of Effectiveness
             Governance
                                                    TVA                                        Rationale
Operations      -         Alignment
                4
                E
                                                           • IS does not act as a strategic, technology advisor to most business customers.
  Projects      +         Value                            • There is not a current strategy
                                                                                          gy document to show how IS objectives
                                                                                                                         j       support
                                                                                                                                   pp TVA
                                                             business goals or how IS optimizes TVA's IT investments.
             Resources                Governance
                                                     2     • The IS governance framework being adopted, CoBIT, is the industry standard.
                                      & Planning
                                                           • Multiple IT groups exist within TVA under separate governance structures and
                                                             operating processes.

                                                           • IS does not participate in customer business planning and tends to be tactical and
                                                             reactive versus strategic and proactive.
                                      Business             • Customer management is designed to optimize IT processes, which creates
                                                     2       confusion and is compounded by the lack of business-focused communications.
                                      Alignment
                                                           • Service level management does not reflect business needs
                                                                                                                 needs.


                                                           • TVA compares favorably to utility IT benchmarks on the technical, infrastructure-
                                                             focused IS functions.
                                                           • SLAs are not reviewed regularly with the business and do not measure overall
                                      Value
                                                     2       customer satisfaction, which is generally moderate.
                                      Realization
                                                           • Procedures are numerous, redundant, and confusing both to IS and customers.
                                                             Other IT service groups follow separate business unit procedures.




                                                                    TVA effectiveness ratings on a 5-point scale:
                                                     5= Leading Practices; 3= Average Practices; 1= Minimal or Ad Hoc Practices

                                                                                                                                          20
                                      Levels of Effectiveness (cont.)
             Governance
                                                   TVA                                        Rationale
Operations      -         Alignment
                4
                E
                                                          • The IS staffing plan includes the use of employees, contractors, and managed
  Projects      +         Value                             task work to meet the changing demands from the business.
             Resources
                                                          • IS has highly skilled staff with tremendous technical and organizational
                                      Resources     3       knowledge; however, 69 percent of the IS workforce is 45 or older.
                                                          • Resource leveling is informal and based on management perception of workload.



                                                          • The success rate for implementing large IT projects is high. IS follows a standard
                                                            project methodology with Project Review Board oversight.
                                      Projects      4     • Standard tools are not followed for small projects or by other TVA IT service
                                                            groups.



                                                          • Tactical/internally focused aspects of running the IT business are managed well
                                                            and are aligned to leading service delivery standards.
                                                          • IS monitors trends for managing an IT business and actively engages other IT
                                                            organizations and experts to gain insight on how to improve.
                                                                                                                 improve
                                      Operations    3     • Processes are driven from an IT perspective rather than what drives TVA
                                                            business.
                                                          • IS uses two tools to administer customer requests, which make tracking issues for
                                                            the business cumbersome and slow problem resolution.

                                                                   TVA effectiveness ratings on a 5-point scale:
                                                    5= Leading Practices; 3= Average Practices; 1= Minimal or Ad Hoc Practices

                                                                                                                                        21
Recommended Future State
The tactical elements of the IS organization and processes have enabled it to adequately function.
Modest investments focused on the underpinnings of governance, alignment, and value will increase
TVA's return on investment in IS.


                        Governance
                          5

                           4

                           3
   Operations                                   Alignment
                           2

                           1

                           0
                                                                                  Future
                                                                                 Governance
                                                                                   5

     Projects                                   Value                               4

                                                                                    3
                                                            Operations                                   Alignment
                                                                                    2

                        Resources                                                   1

                Leading Practice   Mean   TVA                                       0


                    Current
                                                              Projects                                   Value




                                                                                 Resources

                                                                         Leading Practice   Mean   TVA


                                                                                                                     22
Prioritization
By revitalizing the governance and establishing improved customer relations, IS will position
itself to increase its value to TVA. IS should also focus attention in the near term to knowledge
transfer aimed at capturing technical and organizational knowledge of potential retirees.



                                                                           1    Governance Definition
                                                                           4    Customer Management
                                 7
                        1                Short-term focus                  3    Communication Plan
                   4
                                             Short-term focus              7    Knowledge Transfer
                                                                           5    Service Level Management
       ncy




                                         5
   Urgen




                                                    Mid term focus
                                                    Mid-term

                                                    Mid-term focus
                                                                           6    Procedure Refresh
               3
                                                                           9    Project Methodology
                                                               9       8
                                                     6                     10   Help
                                                                                   p Desk Tools & Measures
                                                                   2
                                                          10               2    Portfolio Management
                               Time to Implement                           8    Resource Leveling

             Size of circle represents net value to TVA




                                                                                                        23
Appendix
TVA Management's Response
TVA management agreed with our recommendations with one exception related to
project budgeting
        budgeting. TVA management provided a response outlining planned
actions to implement program and organizational improvements and scheduled
action plans for completion by December 31, 2008.

              p
Auditor's Response
We concur with TVA management's proposed actions. The alternative approach to
project budgets outlines responsibilities and incorporates IS architectural oversight.
APPENDIX
Page 1 of 5
APPENDIX
Page 2 of 5
APPENDIX
Page 3 of 5
APPENDIX
Page 4 of 5
APPENDIX
Page 5 of 5
